<html>
<title> - U.S. POLICY TOWARD LEBANON</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


                         U.S. POLICY TOWARD LEBANON

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                    THE MIDDLE EAST AND NORTH AFRICA

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 11, 2017

                               __________

                           Serial No. 115-83

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
  
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]      


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                __________

                  U.S. GOVERNMENT PUBLISHING OFFICE                    
27-161PDF                  WASHINGTON : 2017                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="5a3d2a351a392f292e323f362a7439353774">[email&#160;protected]</a>                               
                                 
                                 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM R. KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID N. CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          AMI BERA, California
MO BROOKS, Alabama                   LOIS FRANKEL, Florida
PAUL COOK, California                TULSI GABBARD, Hawaii
SCOTT PERRY, Pennsylvania            JOAQUIN CASTRO, Texas
RON DeSANTIS, Florida                ROBIN L. KELLY, Illinois
MARK MEADOWS, North Carolina         BRENDAN F. BOYLE, Pennsylvania
TED S. YOHO, Florida                 DINA TITUS, Nevada
ADAM KINZINGER, Illinois             NORMA J. TORRES, California
LEE M. ZELDIN, New York              BRADLEY SCOTT SCHNEIDER, Illinois
DANIEL M. DONOVAN, Jr., New York     THOMAS R. SUOZZI, New York
F. JAMES SENSENBRENNER, Jr.,         ADRIANO ESPAILLAT, New York
    Wisconsin                        TED LIEU, California
ANN WAGNER, Missouri
BRIAN J. MAST, Florida
FRANCIS ROONEY, Florida
BRIAN K. FITZPATRICK, Pennsylvania
THOMAS A. GARRETT, Jr., Virginia

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

            Subcommittee on the Middle East and North Africa

                 ILEANA ROS-LEHTINEN, Florida, Chairman
STEVE CHABOT, Ohio                   THEODORE E. DEUTCH, Florida
DARRELL E. ISSA, California          GERALD E. CONNOLLY, Virginia
RON DeSANTIS, Florida                DAVID N. CICILLINE, Rhode Island
MARK MEADOWS, North Carolina         LOIS FRANKEL, Florida
PAUL COOK, California                BRENDAN F. BOYLE, Pennsylvania
ADAM KINZINGER, Illinois             TULSI GABBARD, Hawaii
LEE M. ZELDIN, New York              BRADLEY SCOTT SCHNEIDER, Illinois
DANIEL M. DONOVAN, Jr., New York     THOMAS R. SUOZZI, New York
ANN WAGNER, Missouri                 TED LIEU, California
BRIAN J. MAST, Florida
BRIAN K. FITZPATRICK, Pennsylvania
                             
                             
                             C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Mr. Michael Ratney, Deputy Assistant Secretary, Bureau of Near 
  Eastern Affairs, U.S. Department of State......................     6
Ms. Jeanne Pryor, Acting Deputy Assistant Administrator, Bureau 
  for the Middle East, U.S. Agency for International Development.    21

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Mr. Michael Ratney: Prepared statement...........................     9
Ms. Jeanne Pryor: Prepared statement.............................    23

                                APPENDIX

Hearing notice...................................................    46
Hearing minutes..................................................    47
Written responses from Mr. Michael Ratney to questions submitted 
  for the record by the Honorable Ileana Ros-Lehtinen, a 
  Representative in Congress from the State of Florida, and 
  chairman, Subcommittee on the Middle East and North Africa.....    48

 
                       U.S. POLICY TOWARD LEBANON

                              ----------                              


                      WEDNESDAY, OCTOBER 11, 2017

                     House of Representatives,    

           Subcommittee on the Middle East and North Africa,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 2:06 p.m., in 
room 2172, Rayburn House Office Building, Hon. Ileana Ros-
Lehtinen (chairman of the subcommittee) presiding.
    Ms. Ros-Lehtinen. The subcommittee will come to order.
    After recognizing myself and Ranking Member Deutch for 5 
minutes each for our opening statements, I will then recognize 
other members seeking recognition for 1 minute. We will then 
hear from our witnesses. And, without objection, the witnesses' 
prepared statements will be made a part of the record. Members 
may have 5 days to insert statements and questions for the 
record, subject to the length limitation in the rules.
    And, Ms. Pryor, we hear that this is your first 
congressional testimony, so we will ask you the really tough 
questions. Kidding, kidding, kidding.
    The Chair now recognizes herself for 5 minutes.
    Since our subcommittee's last hearing on Lebanon, much has 
changed in our bilateral relationship. Both Lebanon and the 
United States have new Presidents. The picture in neighboring 
Syria continues to look dire. ISIS appears to be on its last 
legs, yet again. But despite these changes, and in some cases 
because of them, many of the same challenges and concerns about 
Lebanon and U.S. policy remain.
    As one of my Israeli friends put it, Lebanon is essentially 
``a constitution without a state.'' Weak political 
institutions, combined with the influx of refugees from Syria, 
have strained the Lebanese Government to the point where it 
struggles to provide even the most basic of services. Most 
Syrian refugees, numbering well over 1.5 million now, are 
living in substandard shelters or apartments, struggling to 
find work, facing increasing hostility from native Lebanese. 
Refugees now make up about one-third of the country's 
population. Wow.
    Economic challenges, including the Syrian war's damage to 
Lebanon's tourism, real estate, and construction industries, 
means that Lebanon's unemployment issues are set to continue 
and get even worse in the future.
    Hezbollah, the Iranian-backed terror group that controls 
many aspects of the Lebanese Government and society, is only 
getting stronger as its fighters come back from Syria armed 
with new skills, with new weapons, and with its ally, Assad, 
sadly, still in power.
    This is not only a threat to the future and stability of 
Lebanon, but it presents one of the greatest threats to our 
ally, the democratic Jewish state of Israel, and to our own 
national security interests as well. Especially when you 
consider that Lebanon's new President, Michel Aoun, is a long-
time ally of Hezbollah, at one point stating Hezbollah is 
necessary so that it can battle Israel.
    Now, I am aware that there are those who argue that 
supporting the Lebanese Armed Forces, the LAF, is essential to 
developing strong security institutions that could serve as a 
counterweight to Hezbollah.
    While I understand the need for an LAF that can protect 
Lebanon's borders, its territorial integrity, and, at least in 
theory, mitigate Hezbollah's influence, reports of LAF and 
Hezbollah coordination and LAF-Hezbollah cooperation have long 
given me concern over the U.S. commitment to supporting the 
LAF.
    In fact, just this past August, Hezbollah and the Lebanese 
Armed Forces launched simultaneous operations against ISIS 
along the Lebanese-Syrian border with numerous reports of 
coordination between the two groups.
    The message that we should be delivering to Lebanon is: If 
they want U.S. military assistance the LAF can either cut off 
ties with Hezbollah completely and unequivocally or they have 
to go at it alone. We must not allow any U.S. equipment to fall 
into the hands of Hezbollah or any other terrorist 
organization.
    But we provide more than just military assistance, and 
USAID has its work cut out for itself as it works to respond to 
Lebanon's need for essentials like clean water, food, economic 
opportunities, especially when considering the influx of 
refugees.
    I am interested in hearing what kind of work State and 
USAID are doing to prepare for Lebanon's legislative elections 
next year, with the stakes higher than ever as Hezbollah and 
Iran try to cement their control.
    I am also interested in hearing any updates on the current 
status of United States permanent resident and Lebanese 
citizen, Nizar Zakka. By now we should all be familiar with 
Nizar's story--invited by the Iranians to participate in a 
conference, then detained, then arrested, and tried and 
convicted of trumped up espionage charges, all in an effort by 
Tehran to exact political and financial concessions.
    We heard from his youngest son, Omar, just a few months 
ago. He sat right here in this room in front of us and he 
described what he and his family have gone through with the 
uncertainty of his father's future, and more importantly, his 
father's health, which is failing.
    So I hope to hear some positive updates on what State is 
doing and what Lebanon is doing to bring Nizar home.
    As we talk about the best way to confront Lebanon's 
numerous challenges, be they political, economic, security, or 
humanitarian, I worry that our short-term objectives in Lebanon 
are getting lost in what needs to be a broader strategy in the 
Middle East.
    With Assad consolidating power in Damascus, Tehran 
continuing to reap the benefits of the JCPOA, and Hezbollah 
gaining even more power in Beirut, Iran's infamous land bridge 
to Lebanon appears all but complete.
    Chairman Royce and Ranking Member Engel have a great bill, 
the Hezbollah International Financing Prevention Amendments 
Act, which would up the sanctions pressure on the terrorist 
group, and I am hopeful that it gets signed into law soon.
    I am looking forward to hearing from our witnesses on 
exactly how U.S. policy has changed over the past year, how the 
administration's budget request for Lebanon corresponds to our 
U.S. national security interests, and how it all fits into our 
strategy for the region as a whole.
    U.S. policy in Lebanon must be calibrated to scale back 
Hezbollah and Iran's influence, while spurring much-needed 
security, stability, and prosperity for the country, but I have 
serious concerns about whether we are having the impact that we 
all desire.
    And with that, I am pleased to yield to my ranking member, 
the ranking member, Mr. Deutch of Florida.
    Mr. Deutch. Thank you, Madam Chairman, for convening 
today's hearing. Thanks to our witnesses for joining us.
    Lebanon is a nation long defined by the role of outside 
forces and internal struggle. The borders of Lebanon as a 
sovereign state were drawn by France after the breakup of the 
Ottoman Empire at the end of World War I, to include three main 
sectarian identities that have continued to play a defining 
role today--Sunni Muslims, Shia Muslims, and Maronite 
Christians--who disagreed on the direction of the country, 
spent 15 years in civil war, and continued sectarian strife 
since that war ended in 1990.
    Today, it is the civil war in neighboring Syria that has 
really altered the reality in Lebanon, because Lebanon has 
opened its arms to help its suffering neighbors, but it has 
struggled to keep up with the sheer scale of the influx.
    Lebanon has absorbed over 1 million Syrian refugees in a 
nation of just 4 million people. Think about that. More than 25 
percent of the entire country's population. It would be 
proportionately equivalent to the United States taking in over 
80 million refugees in just a few years.
    The United States has stepped up with increased assistance, 
offering hundreds of millions of dollars in aid for better 
access to education, improved water and infrastructure 
services, and to help ensure good governance.
    And at a time when Syrians now represent about 40 percent 
of Lebanon's public school students--40 percent of the public 
school students--we have built new schools and trained teachers 
to care for the flow of traumatized students.
    But while we look and see the chaos, Hezbollah has looked 
on and has seen opportunity. Over the past several years, 
Hezbollah, rather than adhering to U.N. Security Council 
Resolution 1701, which calls for the disarmament of all armed 
groups in Lebanon, has done exactly the opposite. With the 
support of Iran, Hezbollah has built up its military capacity, 
intervened in Syria to prop up the Assad regime, and firmly 
entrenched itself in the Lebanese Government.
    Earlier this year the new Lebanese President, Michel Aoun, 
called Hezbollah a resistance army and an essential part of 
Lebanon's defense. Meanwhile, Hezbollah now holds roughly 10 
percent of the seats in Parliament.
    Hezbollah is now so deeply engrained into Lebanon's 
architecture that some Shiite populations have no choice but to 
rely on it, not just for security, but for social services, 
school, and healthcare.
    And I think it is worth repeating the obvious here: A 
legitimate Lebanese Government can't function effectually when 
it is in constant power struggle to govern with a nonstate 
actor.
    Calling themselves a resistance movement or political party 
does not diminish from what Hezbollah truly is, an Iranian-
backed terror organization. Hezbollah's activities have 
destabilized the entire region, from its thousands of fighters 
in Syria to its attacks around the globe that have killed 
Americans, Europeans, Israelis, and Arabs.
    When we held a hearing on Lebanon in this room just 3 years 
back, I noted that Hezbollah dangerously had more than 75,000 
rockets aimed at Israel. Today, as a result of direct support 
from Iran, Hezbollah has over 150,000 missiles and rockets now 
capable of reaching every corner of Israeli territory.
    In that same hearing, just before Lebanon's elections, I 
expressed my concern that the selection of a new President who 
is beholden to Hezbollah would greatly diminish efforts to 
ensure the Lebanon Armed Forces have sole responsibility for 
the country's security.
    Sadly, I think my concerns have proven to be well-founded. 
We are now seeing the Lebanese Armed Forces, who should have a 
monopoly over security in the country, coordinate with 
Hezbollah to fight ISIS in the border regions of Syria.
    So I hope our witnesses today can help us unpack this 
dangerous trend, help us understand the administration's 
strategy for working with our international partners to help 
Lebanese society overcome the influence and penetration of 
Hezbollah.
    And, finally, Mr. Ratney, I hope we can take this 
opportunity to discuss an issue that is not only pertinent to 
U.S. policy in Lebanon, but also U.S. policy more broadly in 
the region. Former National Security Advisor to Vice President 
Biden, Jake Sullivan, testified earlier today in our full 
committee that this administration's strategy in Syria, as he 
put it, has created open running room for Iran, its client 
Assad, and its proxy Hezbollah, to assert greater control over 
Syria, including areas adjacent to the border with Israel. 
Current policy has been casual about allowing Iran and 
Hezbollah to exploit deescalation zones to their advantage, 
creating the very real risk that Iran and its proxies set up a 
permanent presence on Israel's border with Syria.
    Moreover, the Syrian Observatory for Human Rights has 
indicated that Russia and Syria have taken advantage of the 
deescalation zones to change the balance of power on the ground 
and to retake the territory that they previously controlled 
before May.
    You helped to negotiate these deescalation zones, so I hope 
you can provide us with some insight into the decisionmaking 
process, how it fits into the overall strategy to push back 
against Iran, and to help end the bloodshed in Syria.
    Madam Chair, I appreciate it.
    And thanks so much to our witnesses again.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Deutch.
    And now I am pleased to recognize members, if they could 
make an opening statement. I first turn to Mr. Issa, who is a 
renowned expert on Lebanon and has more than a familiar 
interest in the region.
    Thank you.
    Mr. Issa. Thank you, Madam Chair. The late Henry Hyde once 
accused me of having an apartment in Lebanon, I was there so 
often, although it has been Egypt more lately.
    Madam Chair, you said something that I wanted to set the 
record straight on. A reference toward, if you will, 
intolerance or anger toward the refugees, although it could 
exist, pales in comparison to what we would have in the United 
States if we had over 100 million refugees suddenly here.
    The Lebanese have been incredibly tolerant and helpful, 
putting basically double shifts on all their schools, even 
though they can't afford it, in order to try to educate and 
maintain these people. I visited Lebanon and saw what is 
essentially pieces of wood, cardboard, and a piece of plastic 
along the edge of a road, but it is still the best that could 
be done with the funds available.
    The one point that I think I would take personal privilege 
with is, there are three parties, yes, one of them is 
Christian, but the mosaic of Lebanon includes Orthodox and 
plenty of other religions that have historically been both 
together and at odds. In fact, to paraphrase Winston Churchill 
in 1907, the worst form of government there is, is democracy, 
except for all the others.
    The reality is Lebanon is a dysfunctional democracy because 
it is a captured state. They do the best they can. It is not 
good enough. But I would say here today that if we disengage 
from Lebanon, inevitably we give that country to those who have 
taken it hostage, to Iran, to Hezbollah. And only through 
active engagement toward backing the moderate forces that 
predominately are, in fact, in control of Lebanon do we have an 
opportunity to guarantee that they will not have that land 
bridge all the way to the edge of Israel and to the 
Mediterranean.
    So, Madam Chair, Ranking Member, thank you for the 
opportunity, and I look forward to both of our witnesses.
    Ms. Ros-Lehtinen. And I thank you, Mr. Issa, for setting 
the record straight. You are quite right in making that----
    Mr. Issa. You know, as a Lebanon American of Orthodox 
faith, I just had to go one past that Maronite dominance that 
was assumed.
    Ms. Ros-Lehtinen. Thank you, Mr. Issa, as always.
    And now I am pleased to yield to Mr. Boyle.
    Mr. Boyle. Well, thank you. And I applaud the subcommittee 
chair and ranking member for holding this hearing. I believe 
that a country we pay too little attention to in a very busy 
and active Middle East is Lebanon, especially for its ability 
and potential to further destabilize the region.
    I am looking forward to hearing the testimony today. And 
when I ask my questions, I really will be focusing on those 
150,000 rockets that Ranking Member Deutch spoke about and some 
comments that I was given from a couple of Israeli generals the 
last time I was there about the prospects for a third Israeli-
Lebanon war. But, anyway, I will reserve that until it is time 
for questions.
    Thank you.
    Ms. Ros-Lehtinen. Thank you so much.
    And seeing no further requests for time, I will introduce 
our witnesses. But I want to point out that I am so very 
pleased that President Trump and Secretary Tillerson have 
nominated Dr. Yleem Poblete for the position of Assistant 
Secretary of State, Verification and Compliance. It happened 
just today. For nearly 20 years, Dr. Poblete was my senior 
adviser on foreign affairs matters and served as the chief of 
staff and staff director for our full committee. So, we wish 
her much success, and I hope that the Senate approves her 
nomination quickly.
    And now I am pleased to welcome our witnesses. First, 
Michael Ratney, who serves as the Deputy Assistant Secretary at 
the Bureau of Near Eastern Affairs for the State Department. 
Prior to Michael's appointment, he served as the U.S. Special 
Envoy for Syria and as the U.S. Consul General in Jerusalem. 
Since joining the Foreign Service, Mr. Ratney has done multiple 
tours in the Middle East/North Africa region and beyond.
    Thank you so much for being here this afternoon. And I am 
sorry that we missed you the last time that we were traveling 
through Israel, a few months ago. And we look forward to your 
testimony, Mr. Ratney.
    And next we welcome Jeanne Pryor. She is the Acting Deputy 
Assistant Administrator for the Middle East Bureau of USAID 
with a focus on Lebanon, Jordan, the West Bank, and Gaza. Prior 
to this position, Ms. Pryor served as the Director of the 
Office of Middle East Affairs. Ms. Pryor has also held various 
positions for USAID in Afghanistan and other countries in the 
region.
    Thank you so much, Jeanne, for being with us, and we look 
forward to your testimony.
    And I want the members to know that we had invited the 
Department of Defense to come and offer a witness for this 
hearing, but, unfortunately, repeated attempts to confirm a 
witness went unanswered.
    So we thank you for coming.
    Mr. Ratney, we will begin with you.

 STATEMENT OF MR. MICHAEL RATNEY, DEPUTY ASSISTANT SECRETARY, 
    BUREAU OF NEAR EASTERN AFFAIRS, U.S. DEPARTMENT OF STATE

    Mr. Ratney. Thank you very much, ma'am.
    Chairman Ros-Lehtinen, Ranking Member Deutch, distinguished 
members of the subcommittee, thank you very much for inviting 
me here today to discuss our bilateral relationship with 
Lebanon. I would like to request that my full opening statement 
be submitted for the record.
    Ms. Ros-Lehtinen. Without objection.
    Mr. Ratney. Lebanon has a critical role to play in facing 
our foremost security challenges in the Middle East, from the 
campaign to defeat ISIS, to our efforts to push back against 
Iran's malign influence. A safe, stable, and prosperous Lebanon 
is key to advancing a range of U.S. interests.
    In July, President Trump welcomed Lebanon Prime Minister 
Saad Hariri to Washington and reaffirmed our continued support 
for Lebanon. Both leaders discussed the challenges facing 
Lebanon, including Hezbollah's destabilizing influence, the 
threat of ISIS and other violent extremist groups, as well as 
the refugee situation.
    President Trump expressed our Government's deep concerns 
regarding Hezbollah's activities, particularly those in Syria. 
He pledged the U.S. Government's continuing assistance in 
strengthening Lebanon's institutions, especially the Lebanese 
Armed Forces, as a bulwark against extremism and instability.
    To that end, the United States is and will remain Lebanon's 
top security assistance partner. Since 2006, the United States 
has provided more than $1.5 billion in security assistance, 
including the provision of training and military equipment.
    There is no better evidence of the impact of this support 
than the Lebanese Army's successes against ISIS. The Lebanese 
Armed Forces, or the LAF, as it is known, has been defending 
Lebanon's borders and fighting ISIS since ISIS first invaded 
Lebanon in 2014, and what they have accomplished in such a 
short time and under very difficult circumstances has been 
extremely impressive.
    However, Lebanon faces many challenges. Few countries have 
suffered as much from the spillover of the crisis in Syria. 
Today, one out of five people in Lebanon is a refugee, more per 
capita than any other country, including more than 1 million 
Syrians. This is, as you have noted, an incredible number for a 
country smaller than the State of Connecticut.
    The United States stands ready to help. Since the start of 
the crisis, the United States provided nearly $1.6 billion in 
humanitarian aid to Syrian refugees and to the communities that 
host them in Lebanon. We have also provided $1.2 billion in 
economic and development assistance since 2006 to the Lebanese 
people, strengthening the Lebanese Government's ability to 
provide basic services for its people. I know my colleague from 
USAID will further address our efforts on that front.
    Lebanon faces another equally vexing challenge from the 
terrorist group Hezbollah. Hezbollah has long been a menace to 
the Lebanese state and to the region. With Iranian support, it 
continues to grow its military arsenal and threaten regional 
stability. And, of course, Hezbollah exists to threaten Israel, 
whose citizens face the horrible reality of tens of thousands 
of Hezbollah rockets pointed southward. I don't need to tell 
you how profoundly dangerous a war between Israel and Hezbollah 
would be.
    Hezbollah continuously attempts to undermine the LAF as the 
sole legitimate defender of Lebanon. It also works to undermine 
the Lebanese Government's authority, and through its actions in 
Syria it further destabilizes an already fragile region.
    One recent step we have taken to push back against 
Hezbollah is to work with the U.N. Security Council to 
strengthen UNIFIL's mandate. The new strengthened resolution 
passed on August 30 demands that UNIFIL enhance its patrols and 
inspections in southern Lebanon, something we think is 
necessary to ensure Hezbollah cannot continue to build up its 
military arsenal so close to our ally Israel. The new 
resolution also calls for timelines and benchmarks for UNIFIL 
to help build up the LAF's capacity.
    We are also implementing sanctions authorities that 
Congress has provided in order to degrade Hezbollah's 
capabilities and dismantle its finances. We continue to 
coordinate with our colleagues at Treasury and in the 
intelligence community in this effort. And just yesterday, the 
State Department announced Rewards for Justice offers for two 
senior Hezbollah operatives.
    In these and many other ways, we are working to promote a 
safe, independent, and stable Lebanon, which is in the interest 
of the American people as much as it is in the interest of the 
Lebanese.
    So thank you for the invitation to testify before the 
subcommittee, and I welcome the opportunity to answer your 
questions.
    [The prepared statement of Mr. Ratney follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Ms. Ros-Lehtinen. Thank you so much, Michael.
    Ms. Pryor.

    STATEMENT OF MS. JEANNE PRYOR, ACTING DEPUTY ASSISTANT 
  ADMINISTRATOR, BUREAU FOR THE MIDDLE EAST, U.S. AGENCY FOR 
                   INTERNATIONAL DEVELOPMENT

    Ms. Pryor. Thank you. Chairman Ros-Lehtinen, Ranking Member 
Deutch, distinguished members of the subcommittee, thank you 
for the opportunity to discuss USAID assistance to Lebanon.
    Since 2006, with the support of Congress, the United States 
has provided approximately $1.2 billion in economic assistance 
to the Lebanese people. Together with USAID's technical 
expertise, these funds have played a critical role in promoting 
Lebanon's stability through programs focused on good 
governance, education, clean water, and social cohesion.
    As Deputy Assistant Secretary Ratney outlined, Lebanon is 
facing many challenges. The spillover from the Syria crisis has 
weakened the Lebanese economy and put excessive pressure on the 
delivery of services. Investment and trade with neighbors has 
slowed, tourism is down sharply, and unemployment has nearly 
doubled since 2012.
    In the context of these challenges, I would like to talk 
briefly about how USAID's programming is helping local partners 
to deliver services across Lebanon, supporting Lebanon's 
private sector, and enhancing inclusive economic growth.
    One program I would like to highlight is the Middle East 
North Africa Investment Initiative, which supports business 
startups. These are the Lebanese entrepreneurs who are pushing 
Lebanon forward and creating jobs.
    Among them is a 28-year-old woman who studied in Montreal 
and returned home to open a small food processing factory in 
northern Lebanon. She applied for investment capital and 
received $200,000 to expand operations and hire more people.
    Today this woman owns the first wheat-free bakery in 
Lebanon. When I was Beirut in September, I had the chance to 
visit her cafe. Her products are now available at grocery 
stores in Lebanon and she is looking to expand into 
international markets.
    A separate project works with thousands of micro-, small-, 
and medium-scale producers, processors, and cooperatives in 
Lebanon. As part of the program, USAID has helped more than 
1,500 families generate $3 million in sales through the 
production and marketing of honey. These businesses are great 
examples of the lasting impacts that small USAID investments 
can have in Lebanon.
    USAID is currently working in partnership with 
municipalities and civil societies throughout Lebanon to 
promote stability and counter malign influences by improving 
access to public services, empowering civil society to promote 
a culture of good citizenship, and offering opportunities to 
youth and other marginalized populations.
    USAID coordinates with the Ministry of Education and Higher 
Education to strengthen the quality of Lebanon's public schools 
by training teachers, improving reading skills, and increasing 
access to education for vulnerable Lebanese and Syrian 
refugees.
    Last month, I visited a public school in Mount Lebanon 
where children attend in two shifts because of the increase in 
students due to the Syrian crisis. This school and 150 other 
schools across Lebanon benefit from our retention support 
program with UNICEF, which provides academic and 
extracurricular help to prevent Lebanese and non-Lebanese 
children from dropping out of school.
    Another aspect of our education support is the University 
Scholarship Program that gives financially disadvantaged youth 
an opportunity to study at either the American University of 
Beirut or the Lebanese American University. Since 2010, with 
the support of Congress, USAID has funded nearly 900 
undergraduate scholarships, with 110 candidates expected to 
start in the next academic year.
    Last month, I spoke with 18 recipients who shared how the 
scholarship has affected them, their families, and communities. 
One student from southern Lebanon told me the support allowed 
her to be the first person from her village to attend 
university.
    These scholars are leaders and change-makers in their 
communities. The scholarship program also plays an important 
role in promoting American educational and democratic values 
abroad.
    While in Lebanon, I also traveled to the Bekaa Valley, 
where we helped the regional water company with new equipment, 
systems and techniques for water management and treatment. With 
our assistance, the Bekaa water establishment can sustain its 
own operations and has improved the supply of clean water to 
around 1 million residents, including Syrian refugees.
    USAID is also providing food assistance through the World 
Food Programme to support Syrian refugees inside Lebanon. 
Approximately 670,000 Syrian refugees in Lebanon receive food 
aid assistance through electronic food cards that are 
redeemable at more than 500 shops nationwide, injecting $926 
million into the Lebanese economy.
    We believe these programs contribute to helping to secure a 
more peaceful, prosperous, and stable Lebanon, and we continue 
to work with our Lebanese partners to further mutual interests 
in stability and prosperity.
    Thank you for the opportunity to testify today, and I look 
forward to answering your questions.
    [The prepared statement of Ms. Pryor follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Ms. Ros-Lehtinen. Thank you so much. Excellent testimony. 
We thank you both for being here.
    And as I mentioned in my opening statement, I am hopeful 
that State can give us all an update on U.S. permanent resident 
and Lebanese citizen Nizar Zakka, who is being held unjustly in 
Iran.
    Mr. Ratney, can you tell us what both State and Lebanon are 
doing to bring Nizar home?
    Mr. Ratney. So, ma'am, we are well familiar with the case, 
and like you, we have met with his family and we follow it. 
There are some privacy considerations associated with 
discussing the specifics of it. So for the purposes of this 
hearing, suffice to say that we are painfully familiar with the 
injustices of people trapped in the darkness of the Iranian 
justice system. And what I would like to do is go back and see 
if we can get you some more for details in a different setting, 
if I could.
    Ms. Ros-Lehtinen. Thank you so much, and totally 
understand.
    And, Mr. Ratney, many of us are concerned about Hezbollah's 
influence over the Lebanese Government, especially the Lebanese 
Armed Forces, LAF. Considering the increased Hezbollah-LAF 
cooperation, can you explain how our U.S. assistance to the 
LAF--I know you call it ``laugh,'' but it doesn't seem right, 
LAF--is helping to further our goal of rolling back Iranian 
influence throughout the region? And do you support 
conditioning our aid to the LAF on the LAF cutting its ties 
with Hezbollah?
    Mr. Ratney. Thanks, ma'am. It is a very important question.
    Honestly, Beirut, Lebanon, gets a lot of visitors from 
senior military officials from the Department of Defense, from 
CENTCOM and SOCOM, who consistently regard the LAF--I will go 
with LAF--as a reliable and credible partner in the 
counterterrorism campaign. They regard it as a partner worthy 
of our assistance, worthy of our cooperation and partnership, 
and we share that view very much.
    As I think one of your colleagues has said, the Lebanese 
Armed Forces, and Lebanon in general, are operating in a 
complicated, difficult, sometimes fragile environment, but we 
hold them to certain standards. And what we have not seen is 
evidence of the sort of actual military cooperation, maneuver 
cooperation, that would really cause us concern between the LAF 
and Hezbollah.
    We have seen, at times, things that we would consider 
deconfliction. These are two military forces that are operating 
in the same battle space and it is important that they don't 
start fighting each other. There are times, including during 
the recent campaign to oust ISIS from Ras Baalbek, in which we 
did start to see signals of higher levels of communication 
between the LAF and Hezbollah, things that do start to cause us 
concern.
    And I can assure you that those are foremost on our agenda 
when we talk with the Lebanese leadership. And it was foremost 
on the agenda when Prime Minister Hariri was here, both in his 
meetings with the administration and I am quite sure when he 
was meeting with your colleagues here on Capitol Hill, and it 
will continue to be so.
    So I think that is the way we will continue to take it, to 
have a forthright conversation with them. What I don't think we 
can do is simply abandon them and cede the territory entirely 
to Hezbollah. If we do that, Hezbollah owns the battle space 
and Hezbollah owns the agenda.
    And to your point about pushing back on Iranian influence, 
Hezbollah is clearly a major tool, an expression of Iranian 
influence and expansionism. And if we abandon Lebanon to 
Hezbollah, we effectively abandon Lebanon to Iran.
    Ms. Ros-Lehtinen. Good points. Thank you.
    Ms. Pryor, Lebanon, as we know, is scheduled to hold 
Parliamentary elections in May 2018 in which moderate pro-
Western parties will be challenged by resurgent Hezbollah-
dominated coalitions. It is my understanding that a lot of the 
democracy and governance work that we were once doing in 
Lebanon we are having to scale back over in the last year, at 
least, and may not be renewed.
    Can you tell us what the U.S. is doing to support the 2018 
elections process? What is our role there? How much is Embassy 
Beirut currently spending to help pro-Western political parties 
and actors in Lebanon, without interfering in the electoral 
process? Have these numbers changed at all, have these figures 
in the last few months, and if so, why the change?
    Thank you.
    Ms. Pryor. Thank you.
    We still maintain robust support to civil society groups, 
and we intend to do that in the future years as well. It is a 
vibrant civil society, as you may know, and valuable in holding 
especially municipalities accountable to their citizens.
    In terms of elections planning, we are currently in 
discussions with the Embassy in Beirut on what is the best 
approach for that. And we are happy to keep you updated as 
those plans come together. I defer to Michael on the Embassy 
side.
    Mr. Ratney. I am sorry, the question was?
    Ms. Ros-Lehtinen. How much is Embassy Beirut spending? Are 
we involved in helping governance, the rule of law, civil 
society, pro-Western political parties? Not that we are 
involved in pushing a political party, but in the realm of 
governance, the rule of law, human rights, fostering democracy, 
those big ticket items.
    Mr. Ratney. Let me get you a breakdown of all of that. I 
don't have all of those numbers in that level of detail, but I 
am happy to share that with you.
    [The information referred to follows:]
  Written Response Received from Mr. Michael Ratney to Question Asked 
        During the Hearing by the Honorable Ileana Ros-Lehtinen
    The Administration believes supporting Lebanon's democratic 
processes and institutions is crucial to advancing U.S. interests in 
Lebanon, in order to maintain Lebanese and regional stability. In FY 
2016, approximately $18.650 million in U.S. foreign assistance 
supported programming that bolstered the ability of Lebanese civil 
society organizations and governmental institutions to respond to the 
needs of Lebanese citizens, encourage dialogue between parties and 
constituents, and support greater participation in Lebanon's elections. 
The Department of State and USAID will continue to support democracy, 
governance, and rule of law programming in Lebanon with FY 2017 funds.

    Ms. Ros-Lehtinen. Thank you so much. Thank you to both of 
you again for being here.
    Mr. Deutch is recognized.
    Mr. Deutch. Thank you, Madam Chairman.
    I want to take a moment, Madam Chairman, just to 
acknowledge Ms. Pryor.
    We have lots of debates here, we talk about the budget and 
why it is so shortsighted and inadvisable to make drastic cuts 
to our USAID budget. And at a time when there is so much bad 
news, your description of the students and entrepreneurs and 
kids who are being helped with the work that you do deserves 
our deep appreciation, and I just wanted to tell you thanks.
    Mr. Ratney, this committee recently passed a resolution--
and, Ms. Pryor, I should also thank all of those folks who are 
out in the field doing this good work it, too, it is not 
limited only to you.
    We passed a resolution that I authored calling on the 
European Union to fully designate Hezbollah as a terrorist 
organization. As you know, in 2013 the EU designated 
Hezbollah's military wing, but not its political wing as a 
terrorist group. Now, we on this committee have been clear that 
it is a false distinction.
    Last year, the GCC and the Arab League both designated 
Hezbollah as a terrorist organization. They made no distinction 
between military and political wing because they understand how 
the organization works as a single entity. The EU shouldn't 
make that distinction either.
    Europeans argued until 2013 that designating Hezbollah as a 
terrorist organization would hinder their ability to work with 
the Lebanese Government. Today, they argue that the full 
designation would hinder their ability to help Syrian refugees 
inside Lebanon. I hear their concerns, but first I think it is 
worth saying that artificially distinguishing between two wings 
of Hezbollah sends a deeply troubling message of legitimizing 
Hezbollah's activity.
    Second, I want to thank you for stating in your testimony 
that the administration has called on all governments to 
designate Hezbollah in its entirety, but I would like to speak 
to what specifically we are doing to work with our European 
allies on this issue and the broader issue of countering 
Hezbollah.
    Is it your view that an EU designation would have real 
tangible benefits, like improved cooperation to freeze 
Hezbollah's assets in Europe, block illicit fundraising 
activities in support of Hezbollah, and help prevent the types 
of devastating attacks that have been a signature of their 
terrorist activity, all of which would ultimately be beneficial 
in Lebanon as well.
    Mr. Ratney. Thank you, sir.
    I fully agree with you, Hezbollah is not an organization 
with separate wings. It is a single organization. It might 
undertake political activities, but it is the same organization 
that undertakes its terrorist activities and all of the 
nefarious activities that cause us and Israel and others in the 
international community so much concern. I fully agree with you 
that it is a false distinction.
    We have had a little bit of progress in convincing some of 
our allies. Canada most recently, I believe the Arab League and 
a few others have started to designate Hezbollah as a single 
organization, as a terrorist organization. The EU, as you point 
out, continues to draw what we regard, you regard, as a false 
distinction.
    To their argument that it complicates their relationship 
with Lebanon, we continue to have a perfectly fine relationship 
with Lebanon despite the fact that we designate and recognize 
only a single Hezbollah as a foreign terrorist organization. 
Likewise, our assistance to refugees inside of Lebanon, we are 
probably the largest provider of assistance to refugees inside 
of Lebanon, and our designation of Hezbollah hasn't affected 
that at all.
    So it continues to be part of our diplomatic engagement 
with the European Union, with other partners. We want them to 
understand how we perceive this. Tom Bossert at the White House 
wrote an op-ed that appeared just yesterday or the day before 
that addressed this issue specifically.
    We, I think, all need to stop pretending that Hezbollah is 
something that it is not. It is a terrorist organization. It 
conducts activities and plans for activities that threaten us, 
threaten the Lebanese people, and threaten Lebanon's neighbors.
    Mr. Deutch. Thank you, Mr. Ratney. I appreciate your strong 
statement and your efforts.
    And just quickly, I wanted to go back to the issue of the 
deescalation zones and the suggestions that Russia and Syria 
have taken advantage of them to change the balance of power on 
the ground. Can you speak to the deescalation zones, whether 
they are working, whether they are doing what was intended? Are 
these allegations true? And, if so, what can be done about it?
    Mr. Ratney. Thanks for the question.
    So, yeah, we have been heavily involved in negotiating and 
trying to implement these deescalation areas, and there are 
pieces of that that I am happy to talk about here and there are 
other elements that I prefer to talk about in closed session, 
with your permission.
    The deescalation area in the southwest in particular is the 
one we have been preoccupied with over the past few months. It 
is one that we have worked on with the Russians and the 
Jordanians since earlier this summer and began with a cease-
fire that started in the southwest on July 9. It was always 
supposed to accomplish two things.
    One is to stop the violence and effectively freeze the 
conflict between the regime and the opposition, and in doing 
so, to stop those principal drivers of misery of the Syrian 
people, the violence that has afflicted those communities, that 
has driven internally displaced persons, it has driven refugee 
flows, it has destroyed properties and lives and families.
    By freezing the conflict it helps create a condition in 
which normality can return to people's lives and we can create 
an opening and a pathway to a real political resolution. It is 
also supposed to do something else, which is to start to 
exclude Iran and its proxies from Syria.
    Now, we have a view on this, and it is the same view as the 
Israeli Government. We don't think Iran should be in Syria at 
all. We don't think Hezbollah should be in Syria at all. That 
is our policy and that is our position. They have been a curse 
on Syria.
    We have to start somewhere, and by beginning with 
deescalation of the south, beginning with elements, by stopping 
the violence and stopping that core conflict, and by 
undertaking activities, which I would be happy to discuss in a 
different setting, that start to chip away at this Iranian and 
Iranian proxy presence in those areas, we think we would make a 
contribution not just to the lives of the Syrians, but the 
security of Syria's neighbors, and I mean, in particular, 
Israel and Jordan.
    Mr. Deutch. I appreciate it. I would like to continue the 
conversation in an appropriate setting.
    I appreciate it. Thank you, Madam Chairman.
    Ms. Ros-Lehtinen. I, as well. Thank you so much, Mr. 
Deutch.
    Now we turn to Mr. Cook of California.
    Mr. Cook. Thank you very much, Madam Chairman.
    I appreciate your candor on some of these responses. And I 
have to tell you, it is very, very hard for us, I think, to 
show or feel any empathy for Lebanon as a whole, because I 
think most of us feel that Hezbollah controls the country. I 
think they have a strong influence on the Lebanese Army. 
Obviously, the Iranians are supplying, through the ground route 
weapons, everything like that.
    So I almost have the Israeli viewpoint, and that is, as was 
previously mentioned, the number of missiles that are in the 
northern flank of Israel, that a country right now that has a 
terrorist group that has had a history of being at war with 
Israel and other individuals, as well as killing 173 marines 
and other military personnel, I believe it was 1983, as well as 
kidnapping a U.S. marine observer--excuse me, a U.N. observer, 
by the name of Rich Higgins, torturing him, castrating him, 
killing him.
    So there is a lot of history. And to get over that, when 
somebody that has military background and on the House Armed 
Services Committee, I think it is a most serious threat right 
now to Israel, because of the rockets, because of their 
history, and everything else.
    And, of course, Israel, unfortunately, I don't want to get 
too military, but they are faced with Iran, they are faced with 
Hezbollah, they are faced with Hamas, they are faced with the 
Houthis, the situation in Yemen. And of course, today, I don't 
know if that has been confirmed about the missiles, the Scud 
missiles going into the Saudi Arabia.
    And it is like, I just cannot close my eyes to that. And I 
feel that sooner or later--if anything happens on Iran, it is 
going to happen in Lebanon at the same time, because you have 
to accept a fait accompli in who runs that country.
    Now, I know you already elaborated on it, and if you could 
just perhaps agree or disagree with me, because it is very--I 
understand the schools and everything, but all those schools 
are going to be destroyed when you have an exchange of that 
many missiles going into Israel. It is going to be total 
devastation. And I cannot see any way out of that box with that 
terrorist organization, having that much control.
    Mr. Ratney. So it is certainly unnerving, the picture you 
paint and the reality on the ground. You used the word empathy, 
and I guess I feel a certain amount of empathy for Lebanon. 
Maybe it is because I lived there at one point. Maybe it is 
because of very longstanding familial and cultural ties between 
the United States and Lebanon. There are connections between 
the U.S. and Lebanon that are undeniable.
    But empathy doesn't address those hard-nosed questions of 
security that we have to grapple with. It doesn't address this 
question of Hezbollah's presence in Lebanon and the effect that 
has on the stability of the Lebanese state and the security of 
Israel. And those are serious questions we need to grapple 
with.
    And we need to grapple with the tools that we have in our 
tool kit. Some of that is strengthening the genuine national 
institutions of the Lebanese state, and the Lebanese Armed 
Forces, the LAF, foremost among them. This is a genuine 
national institution recognized by the Lebanese people across 
the sectarian boundaries as an institution of stability, one 
that the Lebanese people can be proud of, one that can 
represent and defend Lebanese sovereignty. That is one way.
    What we did in the U.N. last month was trying to strengthen 
the mandate of UNIFIL. UNIFIL is an imperfect creature, but 
both Israel and Lebanon recognize that its presence there has a 
deescalatory, a calming influence on the situation on the 
ground.
    And we fought hard, Ambassador Haley in New York fought 
very hard to ensure that when the mandate was renewed, it 
wasn't simply business as usual, that we were putting in place 
the ability of UNIFIL to address some of these real concerns, 
to monitor, in the first instance, times when UNIFIL is blocked 
from being able to do their job, from being able to conduct 
inspections. And if that happens, they are obliged now to 
report that back.
    So this is how we are pursuing it. And, again, I would go 
back to a comment that I made earlier, that in an imperfect 
world and in an imperfect region I think it would be a mistake 
to simply abandon Lebanon to those forces, to Hezbollah, to 
those forces of evil. I think we are duty-bound to at least try 
to reinforce those elements of Lebanese society that can start 
to push back on those forces.
    Mr. Cook. Well, once again, I just want to thank you very 
much. I am running out of time here, and I appreciate, as I 
said, your candor.
    And I yield back.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Cook.
    Mr. Boyle of Pennsylvania.
    Mr. Boyle. Thank you.
    As I previewed when I was briefly speaking at the opening, 
I wanted to talk about the rockets or the prospect of what 
would be a third Israeli-Lebanese war.
    Right now there are approximately 150,000 or so rockets in 
southern Lebanon being pointed at Israel, far more than was the 
case a decade ago. But it is not just quantity, it is also 
quality. These aren't rockets that can only reach Haifa and be 
fired randomly with a big variance in terms of where they would 
actually land. These are, of course, Iranian-funded, all of 
them, much more accurate missiles that can reach throughout 
Israel.
    So given that, and given--I mentioned or previewed what a 
couple of Israeli generals told me. When I was in Israel 2 
years ago, a few of them independently used not the word 
``if,'' but ``when'' there is a third war with Lebanon. 
Needless to say, that is deeply concerning given, as you 
pointed out, Mr. Ratney, just how much damage will be done due 
to a third war between Israel-Lebanon or Israel-Lebanon/
Hezbollah.
    So I was curious in your take of what you think the 
prospects are of a potential third war between Israel and 
Lebanon, how likely or unlikely that is, and what sort of 
events you would look for that would bring it about.
    Mr. Ratney. Thank you.
    I am a little reluctant to estimate the likelihood of it, 
but I will very much agree with you just how unnerving, what a 
daunting proposition this is. You are absolutely right. The 
quantity and the quality of weapons in Hezbollah's arsenal is 
vastly greater than it was in 2006 during the last war. And you 
don't even have to be in northern Israel, you can be in any 
part of Israel to feel that palpable sense of what it would 
involve if war broke out between Hezbollah and Israel.
    The Israelis have the right and the ability to defend 
themselves, that is the first thing we would recognize. We also 
recognize that neither Israel, nor Lebanon, and nor Hezbollah, 
to my knowledge, want to get into a war.
    Mr. Boyle. All right. Well, that is--I mean, if you are not 
going to talk about how likely or unlikely it is, that is the 
point then that I want to get to, because, you know, 
unfortunately, in this committee with so many, just in the 
Middle East, so many things going on, unfortunately, Lebanon 
has not gotten the attention that I think it warrants.
    So how much should this be on our radar screen that 
Hezbollah would be gearing toward this, or is it, as some 
people think, something they would not want, at least right 
now, because of all the other things they are involved with?
    Mr. Ratney. Yes. So I think despite a lot of the bluster 
you hear from Hezbollah leadership, and there are particularly 
obnoxious statements that you see from Hassan Nasrallah and 
others about the sort of damage that they would inflict, I 
think they also recognize that a war with Israel would result 
in unimaginable damage to Lebanon, to the Lebanese state, not 
just to Hezbollah, not just to their military arsenal, but much 
more broadly within Lebanon, including in areas far afield.
    And I think they would recognize that. And I would hope 
that they wouldn't want to own that, because that would be the 
responsibility that they would bear in the event of a war.
    I think, for obvious reasons, Israel doesn't want a war. 
There would material damage and human damage that would be--it 
is hard to calculate, but it would be certainly something that 
they would avoid at all costs. I don't think any side, neither 
the Lebanese Government, nor Hezbollah itself, nor the 
Israelis, are in any way sort of enthusiastic about those 
prospects.
    That leaves us with, what do we do to try to avoid it. Some 
of that is making sure that Lebanon and Hezbollah understand 
the cost of such a war. And some of it is the steps that we are 
taking, some public, some quiet, to try to push back on 
Lebanon's expansion, efforts that we are taking to try to 
squeeze Hezbollah--I am sorry, Hezbollah's expansion--efforts 
that we are doing to try to squeeze Hezbollah's access to 
financing, to money, to moving money in the international 
financial system, to raising money overseas. And, of course, 
what I was saying earlier, steps that we are trying to 
strengthen genuinely national responsible institutions of the 
Lebanese state that can perform the functions of a government 
and begin to marginalize Hezbollah and push them onto the 
fringes.
    Mr. Boyle. Well, I only have 20 seconds or so remaining, 
but toward that last part, that sort of institutional building 
that very much segues into the important work USAID does, and 
why it is important that this sort of soft power of the United 
States is not cut at this critical time.
    So, with that, I will yield back.
    Ms. Ros-Lehtinen. Good points. Thank you so much, Mr. 
Boyle.
    I am now pleased to recognize Mr. Issa of California.
    Mr. Issa. Thank you.
    Mr. Secretary, the round and line of questioning included a 
discussion of 2006. And even though this isn't a military-
oriented committee, if you don't mind giving your opinion of 
what you think, if this is correct.
    In 2006, Israel made a decision to take out Hezbollah. They 
rolled heavy equipment, tanks, into south Lebanon. They bombed 
virtually every institution and every bridge in Lebanon, 
completely destroying the ability to move anywhere in Lebanon. 
At the end of more than 30 days, they withdraw with their 
casualties and essentially have not been back in.
    So when I look at that, isn't it reasonable to say that at 
least at that time, with the defensive weapons available to 
Hezbollah, the Israeli Army was unable to defeat Hezbollah?
    Mr. Ratney. So that is a judgment I would rather not make.
    Mr. Issa. Well, let's go through this. Was their goal to 
diminish or deter Hezbollah?
    Mr. Ratney. So I----
    Mr. Issa. No, just please, because I have very little time 
and here is----
    Mr. Ratney. Certainly.
    Mr. Issa. I will get to my point if you would just answer a 
couple questions.
    Mr. Ratney. Yes, for sure.
    Mr. Issa. There were rocket attacks actually after they 
pulled out, weren't there?
    Mr. Ratney. Israel is going to use the tools and the means 
at their disposal to deter Hezbollah and to try to degrade 
their capacity, and they would do it again.
    Mr. Issa. Okay. So they may be willing to try what failed 
before.
    And the reason I am getting to this, I was in both Israel, 
all the way to the border, literally watching tanks come back 
destroyed with dead crews in Israel. I was in the north, 
literally looking at the destruction in both Hezbollah areas 
perhaps, but throughout the Christian communities, including 
the destruction of the environment there by destroying the oil 
reservoirs and taking down hospitals.
    I saw a war at both sides 11 years ago. And at the end of 
it all, Hezbollah was still there and Israel had not defeated 
them.
    And the reason I say that is not to diminish the fact that 
Hezbollah is a cancer on Lebanese society and has been for my 
16\1/2\ years in Congress. But if we, in fact, assume that 
Israel cannot--could not, at least at that time, take out 
Hezbollah, then it is fair to say that all the things we will 
do to strengthen Lebanese society and to strengthen the 
Lebanese Armed Forces are not effectively meant for a moment to 
believe that they can supplant Hezbollah directly, but rather 
to begin or continue moving Lebanon away from a dependency that 
could cause Hezbollah to be a bigger factor in Lebanese 
Government and Lebanon society.
    Mr. Ratney. So for all the reasons you say and many more, 
that is why I don't think the Lebanese, nor the Israelis, 
relish the prospect of a war at this point, nor should they. 
And so rather than calculate or try to calculate the impact of 
such a war and who might prevail, better that we focus on how 
we avoid such a conflict.
    Mr. Issa. So back to the avoiding. Since 2006, we have 
continued to support the Lebanese Armed Forces and armed forces 
that I understand have never lost weapons. They have, in fact, 
been successful at least in part in keeping ISIS out of their 
country without U.S. military on the ground. We have provided 
them aid, including even missile-firing, propeller-driven 
aircraft, and they have used them effectively to maintain an 
ISIS-free Lebanon. That is the good part, right?
    Mr. Ratney. Yeah.
    Mr. Issa. Additionally, I am going to ask just one closing 
question, and this is in your wheelhouse, both of yours. If the 
Lebanese Government were to collapse because of another war or 
other activity, who would likely prevail, Hezbollah and the 
Shias, ISIS and the Sunnis, or, in fact, would we be back at a 
civil war? And I do want conjecture here because those are the 
three possibilities if a multi-confessional government were to 
fall?
    Mr. Ratney. So with respect, I am not going to pick one of 
those three, but I will tell you that the fact that those are 
the three options really illustrates the urgent, absolute need 
to ensure that it doesn't happen, that you have a viable, 
credible, dependable Lebanese state, one that we support, so 
neither of those three prospects ever come to pass.
    Mr. Issa. So, in closing, the three pillars of Lebanese 
society, of course, are multi-confessional democracy, a banking 
system--and maybe I am putting the order backwards--and a level 
of tolerance for refugees, including the Palestinian refugees 
who still are in great numbers and now over 1 million Syrian 
refugees.
    As we look at threats to their society, if you would 
comment briefly on the threats to the banking community should 
it fall, the threats we have already talked about to multi-
confessional democracy, but the last one, if we are unable to 
ensure that sufficient aid is provided for refugees in order to 
keep those quasi-camps from becoming hotbeds of terrorism.
    Mr. Ratney. You know, having visited Lebanon, the last time 
was about a year ago, I can tell you that that last issue, the 
presence of that huge number of refugees, seems to be the one 
that is foremost on the minds of Lebanese. And I can understand 
why, when you have such an enormous percentage of your country 
to be refugees, not just, frankly, not just Syrians, but 
refugees that have been there from other flows of refugees in 
the past.
    We are appreciative of the fact that Lebanon has been 
willing to host them, and we are aware of the burden that it 
places. We try to help with some assistance, as do other 
donors. At the end of the day, we are dependent on Lebanon's 
ability and willingness to welcome all those refugees.
    They are clearly keen to see them leave. One of the reasons 
that we have been focused on deescalation of the conflict in 
Syria, and I don't want to overstate the prospects for this, 
but one of the reasons is you start to create the conditions in 
which refugees can return to their home. I think initially you 
will start to see internally displaced persons who are still in 
Syria return to their homes, but eventually you start to create 
the conditions in which refugees feel safe enough that they can 
return voluntarily to where they are from.
    That would be an unmitigated good, both for Syria and for 
Lebanon. It is something we are working very hard for. And we 
are going to try to continue to work with the Lebanese 
Government to ensure that they can bear the burden of these 
refugees and work with the security services to ensure that 
those refugee communities are not infiltrated by bad guys, 
including ISIS, and I know they work very hard to prevent that.
    So there is an area where we can see where the U.S. can 
actually make a difference in helping Lebanese society maintain 
stability despite those challenges.
    As you point out, the banking system also, kind of a 
pillar, a national institution, if you will, of Lebanese 
society, something that has been a backbone of their economy. I 
think maintaining the viability of the banking system is 
important. But also, as we them tell and advise them very 
forthrightly, ensuring that that banking system is not 
exploited by bad elements, doesn't become a haven for money 
laundering, the record thus far has been good. We want to 
ensure that that continues to be the case.
    And the broader issue is a much longer conversation about 
maintaining confessional coexistence within a country which has 
been kind of riding that balance, sometimes just barely and 
sometimes not at all, over the course its, in fact, its entire 
existence.
    That is where it sometimes gets tricky, and that is where 
sometimes even our ability--and, obviously, the situation that 
Lebanon is experiencing now where the good news is they have a 
government, the bad news is that Hezbollah is a participant in 
that government, it is kind of symptomatic of just those sorts 
of societal forces that are at play.
    Mr. Issa. Thank you.
    And thank you, Madam Chair.
    Ms. Ros-Lehtinen. Thank you, Mr. Issa.
    Mr. Schneider of Illinois.
    Mr. Schneider. Thank you. And, again, thank you, Madam 
Chairman, the ranking member, for hosting or calling this 
hearing, and to our witnesses for being here this afternoon.
    I want to associate myself with the remarks that my 
colleague from Florida, Mr. Deutch, made, Ms. Pryor, for the 
work that you and USAID do, not just in Lebanon, but around the 
world. And we have talked about this in this forum many times, 
but the need to emphasize the three pillars of not just 
defense, but diplomacy and development. And working to protect 
and pursue American interests around the globe is critical. So 
thank you for all that you do.
    I am going to pick up the conversation where we were 
talking about earlier on Hezbollah. And 2\1/2\ years ago 
Congress passed and the President signed the Hezbollah 
International Financing Prevention Act. And to what extent has 
that legislation had in affecting Hezbollah's ability to 
execute its strategy, achieve its goals?
    Mr. Ratney. So that piece of legislation and others that we 
have are among the tools in our toolbox. And one of our 
objectives, one of our overriding objectives is to deny 
Hezbollah access to financing--where they move their money, how 
they move their money, how they get access to funds. And that 
is a tool that we have. And as information in the case of this 
particular piece of legislation, the particular tool that we 
have, as we get information, as our intelligence community and 
Treasury and the State Department have information to act on, 
we will pursue those cases.
    We have also pursued designations of individuals who have 
been involved in moving Hezbollah money, designated them under 
various authorities that we have to ensure that they don't have 
access to the financial system.
    It is a challenging environment. In many cases, Hezbollah 
doesn't use the legitimate financial system in order to move 
money. So working with our partners--and that is a global 
problem, it is not simply a regional or a U.S. problem, it is a 
global problem--to look for all of the ways in which Hezbollah 
and groups like it are able to move money and able to raise 
money internationally. And that continues to be an enormous 
priority of ours.
    Mr. Schneider. So it is not just with respect to money. It 
is with respect to acquiring arms. One of the things we talked 
about here today is the 150,000 rockets that Hezbollah has 
stockpiled in southern Lebanon aimed at Israel. There is also 
growing concern of Hezbollah developing an indigenous rocket 
manufacturing capacity.
    Can you touch a bit on that, it is something we have 
introduced legislation last week to try to address that issue, 
but what specifically you think we should be doing?
    Mr. Ratney. So there are elements of your question that I 
would prefer to answer in a closed session, if I could. But 
clearly where you are going is an important, very important 
point. A principal source of most of these rockets and weapons 
is from one place. It is from Iran. This is the sort of mega-
problem that hangs over so much of what we are doing in the 
Middle East, and certainly in Lebanon, and finding ways to 
prevent those flows of weapons is a major priority of ours. It 
is hard, but it is extremely important. It depends, not just 
the security of Lebanon, the security of Israel, and the 
stability of the region depend on us to find ways to push back 
on that,.
    Mr. Schneider. And that is a good lead into my third 
question, which I suspect will have a similar answer, that we 
need to have in a different location. But the deescalation zone 
in southwestern Syria. And real grave concern, not just 
militias aligned with Iran having personnel there but literally 
IRGC personnel on the borders with Israel, with Jordan, 
destabilizing that region, creating that land bridge from 
Tehran into Lebanon and through Syria. What steps are we taking 
in that? What steps should we be taking further to make sure 
that doesn't happen.
    Mr. Ratney. So as we have undertaken these discussions with 
the Russians and the Jordanians, and that has been the 
principal trilateral kind of group that has been discussing the 
deescalation area, the Israelis have been fully knitted into 
that process. And as many times as I go to Amman or elsewhere 
to meet with the Russians and meet with the Jordanians, I am 
back in Jerusalem meeting with the Israelis, because their 
views, their concerns, and their information about what is 
going on is critical to our understanding of that part of 
Syria.
    And clearly one of the reasons we entered into this is 
because--it is not just for the stability and security and 
ending the violence inside of Syria, it is to take steps that 
are going to address the security of Syria's neighbors, Israel 
and Jordan foremost among them.
    So they are very much a part of these conversations. I am 
leaving Friday night for another trip to Israel and that is 
going to be the number one topic of my discussions there.
    Mr. Schneider. Well, I wish you a good and successful trip.
    In the few seconds I have left, Ms. Pryor, I don't want to 
leave you out. What more can we do to help what you are trying 
to accomplish to make sure, as we talked about, the security 
issues, and the security issues are obviously paramount, but 
that we are also continuing to address the, in many cases, 
overwhelming development issues in Lebanon?
    Ms. Pryor. Thank you.
    Your continued support. Because of your support, we are 
doing some amazing work in Lebanon, taking the stress off some 
of those host communities.
    You know, for example, I was in a city in which half the 
population is now Syrian refugees. But because of the support 
you have given us, we are able to help them address those 
challenges and find win-win projects.
    So that it isn't just Syrian refugees getting help, but 
disadvantaged Lebanese as well, and bringing the two groups 
together and having them see that they really share the same 
problem set and that they could also find solutions together as 
well.
    Mr. Schneider. And if I can just say in one closing second 
that the investments we make in these projects, as was 
referenced earlier, may be at risk of being destroyed in a 
conflict. But I think making these investments today are the 
best path we have to avoid those future conflicts, that 
hopefully they can stand for a long time.
    So with that, I yield back, but I thank you very much.
    Ms. Ros-Lehtinen. Thank you very much, Mr. Schneider.
    Mr. Donovan of New York.
    Mr. Donovan. Thank you very much, Madame Chairwoman.
    I am at a disadvantage. I came from another hearing, as did 
my friend Tom Suozzi, so you may have already touched on this. 
But I just wanted to ask both of you one question, kind of 
three parts of it.
    In each of your areas of responsibility at State, at USAID, 
and my colleague from Illinois just touched on it a little bit, 
what do you find is each of your greatest challenges in the 
region? What are you guys doing in each of your various areas 
of responsibility to address those challenges? And what would 
you need from either the subcommittee or full committee, this 
entire Congress, to help you further your efforts?
    Mr. Ratney. It is a big question.
    Mr. Donovan. That is why I only ask one.
    Mr. Ratney. So this is a big, complicated region that we 
are dealing with, and the parts of it that I deal with are a 
microcosm of that complexity. And within it, whether we are 
talking about our subject today of Lebanon; Syria, that I deal 
with extensively; Jordan; the Israeli-Palestinian file, which 
we are still preoccupied with, all of these are individually 
extraordinarily complicated questions in which we are trying to 
find a measure of stability to bolster our partners, bolster 
the cause of moderation and decency and the ability and will to 
fight back against extremism, whether it is Iranian or jihadi 
or what have you.
    So that is the complexity. That is the environment we are 
dealing with. And the tools we have, whether they are military, 
whether they are development, whether they are diplomatic, are 
all critical. And finding the way to knit that all together is 
our biggest challenge right now, to assure that all of those 
tools work in concert.
    It is what we have been trying to do in Syria after a 6- or 
7-year war that has left so many people dead, and we are trying 
to end the conflict in a decent way, a decent way for the 
Syrian people. And we have certain tools at our disposal, some 
military, some assistance, some diplomatic.
    Likewise on the file, the Lebanon file that we are talking 
about today, that is the challenge, is making sure we are 
coordinated and knitted up. And I felt, I will tell you my own 
personal experience, that we have had a considerable degree of 
support from Congress in doing that.
    Ms. Pryor. Thank you.
    We have talked a lot about the refugee crisis already, but 
there is another challenge that Lebanon faces that I am equally 
concerned about, in the impact of the Syrian war on Lebanon's 
economy.
    Lebanese farmers have been particularly impacted because 
they have lost the land routes to their traditional markets for 
their produce. So we have been working with these farmers to 
improve the quality of their products, pursue more cost-
effective techniques, and help them locate alternative markets. 
But the impact----
    Mr. Donovan. You said they lost their routes. Is that 
because of terrorism? Is that because----
    Ms. Pryor. The closure of the border with Syria.
    Mr. Donovan. I see.
    Ms. Pryor. And I have seen it devastated rural communities. 
But with very small targeted investments we have been able to 
see some of these communities come back to life. So, again, I 
would just say your continued support is what is most helpful. 
Thank you.
    Mr. Donovan. Thank you both for your service.
    Ms. Ros-Lehtinen. Thank you so much for that question. 
Thank you.
    And, Mr. Suozzi, I am just so happy that I finally learned 
how to say your name that I am just going to say it a lot.
    Mr. Suozzi.
    Mr. Suozzi. Thank you, Madam Chairwoman.
    So does UNIFIL recognize the existence of the rockets on 
the southern border of Lebanon aimed at Israel?
    Mr. Ratney. Sir, do they recognize the existence of them?
    Mr. Suozzi. Yes.
    Mr. Ratney. They are certainly aware of them.
    Mr. Suozzi. Have they confirmed it? I mean, do they confirm 
it exists? And have they documented it?
    Mr. Ratney. I don't know if they actually undertake to 
document those sorts of precise numbers. I don't know if that 
is within their mandate. But certainly----
    Mr. Suozzi. Do they take actions to address it?
    Mr. Ratney. I mean, their very presence--they are not 
peacekeeping force in the sense of undertaking those sorts of 
active measures to confiscate weapons, if that is what your 
question is.
    Mr. Suozzi. Well, what role could UNIFIL play in helping to 
identify and locate and, if necessary, eradicate those 
missiles?
    Mr. Ratney. Yeah, so the role of UNIFIL is a modest one, we 
will acknowledge that, first and foremost. It is one, however, 
that both the Israelis and the Lebanese regard as useful. Their 
mere presence there has the effect of lowering tensions.
    What we have tried to do with renewal of their mandate just 
last month is to strengthen it. They can't just be a force that 
has people on the ground wandering around. They have to be 
actively out there inspecting. They have to be actively out 
there reporting back to the U.N. if there are instances where 
their efforts to inspect are blocked. And they have to be 
setting the stage in which the Lebanese Armed Forces ultimately 
can take up that role themselves of policing and monitoring 
their southern border.
    So that is the ultimate objective, and it is a slow process 
of working with UNIFIL to try to ensure that they take a more 
active role.
    Mr. Suozzi. Is there any indication that the Lebanese Armed 
Forces have taken on that role of trying to identify and 
eliminate those rockets?
    Mr. Ratney. So they have started to take on the role of 
redeploying to the south, and that is an important step. And 
the more their capacity builds and the more we are able to 
build that capacity and build that credibility and, in the 
process, reduce the influence and the pervasiveness of 
Hezbollah, we would hope that their ability to do that would 
grow.
    Mr. Suozzi. So the ultimate objective is to try and 
eliminate those missiles from existing in that location. What 
role can we ask UNIFIL to play to try and help us to accomplish 
that objective?
    Mr. Ratney. To continue monitoring what they see and to 
continue reporting what they see and to continue telling us if 
there are instances in which their efforts to monitor the 
situation are obstructed.
    Mr. Suozzi. And do you see that--I apologize again--do you 
see that that has been done? Have there been--is there a 
document that says we have identified these missiles and these 
locations? I mean, most of our information comes from 
intelligence sources as opposed to UNIFIL.
    Mr. Ratney. Right.
    Mr. Suozzi. So wouldn't it make sense that UNIFIL would say 
we have this document that says we think these rockets exist in 
these locations and, you know, we think that somebody should do 
something about that?
    Mr. Ratney. Yeah, it is a fair point. And what I can try to 
do is round up for you the sorts of reports that UNIFIL files 
with the United Nations.
    Mr. Suozzi. About particular locations?
    Mr. Ratney. Yeah. I don't know exactly the level of detail 
that they go into in their reporting back to U.N. headquarters, 
but I could certainly endeavor to find out.
    Mr. Suozzi. Would it be reasonable to try and request 
UNIFIL to do something like that, to take on a more detailed 
role and giving us more detailed information about the 
existence of these rockets?
    Mr. Ratney. So we are trying to take this step by step. We 
are trying to get to the point where they are taking a much 
more active role of monitoring and inspection and a much more 
active role in reporting on which of those efforts have been 
blocked. And so this is a gradual process. I think it was a 
small but important step when we incorporated those measures 
into the mandate renewal last month. We have to continue 
working with them.
    We made clear when that mandate was renewed that business 
as usual, the approach of UNIFIL in the past, can't continue. 
We need something that is more active.
    Mr. Suozzi. So would it help your efforts if the Congress 
was to take some sort of role to make that formal request of 
UNIFIL to provide specific documentation of the detailed 
location of these rockets?
    Mr. Ratney. So can I take that question back and think 
about that and give you a considered answer?
    Mr. Suozzi. Yes, you can.
    [The information referred to follows:]
 Written Responses Received from Mr. Michael Ratney to Questions Asked 
          During the Hearing by the Honorable Thomas R. Suozzi
    <bullet>  UNIFIL coordinates closely with the Lebanese Armed Forces 
to implement UN Security Council Resolution 1701 (2006), including 
working towards establishing an area free of any armed personnel, 
assets and weapons other than those of the Government of Lebanon or 
UNIFIL.

    <bullet>  UNIFIL regularly conducts patrols intended to deter 
destabilizing activity, including rocket launches. UNIFIL deployment is 
meant to help Lebanon and Israel move towards a permanent ceasefire and 
a long-term solution--one that includes the complete disarmament of all 
militias in Lebanon, including Hizballah.

    <bullet>  During the August 2017 UN Security Council negotiations 
to renew UNIFIL's mandate, the United States pushed for a strengthened 
resolution (2372) requesting the Secretary-General find ways for UNIFIL 
to step up its patrols and inspections, in its area of responsibility, 
with the intention of helping disrupt Hizballah's activities. The 
resolution also calls for precise timelines and benchmarks for UNIFIL 
to help build up the Lebanese Armed Forces's capacity, with the goal of 
transitioning UNIFIL's duties in southern Lebanon to the Lebanese Armed 
Forces.

    <bullet>  Reports on the implementation of UNSCR 1701 are publicly 
available on the UN's website. Incidents cited in these reports include 
Blue Line violations by individuals in civilian clothing, instances 
when UNIFIL's movements are deliberately impeded, and civilians seen 
carrying unauthorized weapons. The Department of State is following up 
closely on the implementation of this resolution via the U.S. Mission 
to the United Nations. A more visible UNIFIL presence is meant to 
address concerns about illegal weapons in southern Lebanon.

    Mr. Ratney. Thank you.
    Mr. Suozzi. Thank you very much.
    I yield, Madam Chairwoman.
    Ms. Ros-Lehtinen. Thank you so much.
    And, Mr. Ratney and Ms. Pryor, our subcommittee looks 
forward to working with you in evolving U.S. policy toward 
Lebanon. Very interested in the upcoming elections. And we look 
forward to hearing from you in a classified setting to know the 
efforts that we are undertaking to seek the liberation of 
United States permanent resident Nizar Zakka, who is always in 
our minds. Thank you so much.
    And with that, our subcommittee is adjourned. Thank you.
    [Whereupon, at 3:19 p.m., the subcommittee was adjourned.]

                                     
                                    

                            A P P E N D I X

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
